Region 3's Oversight of Safe Drinking Water Act Activities

                   EPA Office of Inspector General
                   Region 3's Oversight of Safe Drinking Water Act
                   Activities
                                                           #6100310



Inspector General Division Conducting the Audit:

Mid-Atlantic Audit Division
Philadelphia, PA

Program Office(s) Involved:

Water Protection Division
Philadelphia, PA



                                       TABLE OF CONTENTS

   •   EXECUTIVE SUMMARY
   •   CHAPTER 1

       INTRODUCTION

       PURPOSE

       BACKGROUND

       SCOPE AND METHODOLOGY

       PRIOR AUDIT COVERAGE

   •   CHAPTER 2

       DRINKING WATER VIOLATIONS PROLONGED

       States Did Not Tell EPA About Excessive Lead and Copper

       States Did Not Inform EPA About Violations Timely

       EPA's Inaction Precluded Enforcement

       EPA Lacked Data
    EPA Responsible For Enforcement But Lacked Data

    EPA Headquarters Also Concerned

    Day Care Centers & Schools Should Have Been Considered Priority 1

    Not All Enforcement Needs To Be Painful

    CONCLUSION

    RECOMMENDATIONS

•   CHAPTER 3

    LCR TESTING PROCEDURES DISREGARDED

    SDWA Permits Special Sampling

    Make-up Samples Prohibited by the LCR

    Sample Invalidation Permitted Without Documentation

    RECOMMENDATION

•   CHAPTER 4

    EPA REVIEWS DO NOT REQUIRE CORRECTIVE ACTION

    Ineffective Midyear Evaluations

    No Recommendations In Priority Audits

    Data Verification Audit Found Discrepancies

    RECOMMENDATIONS

•   CHAPTER 5

    OTHER MATTERS

    Quarterly Grant Reports Vague and Late

    RECOMMENDATION

•   APPENDIX A - REGION 3'S RESPONSE TO THE DRAFT REPORT

    (Available only on hard copy)

•   APPENDIX B - DISTRIBUTION
